No.: ____________________

IN THE SUPREME COURT OF THE UNITED STATES

JIMMY FERNETUS, PETITIONER
v.
UNITED STATES OF AMERICA, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Sean M. Wagner,
Florida Bar No. 14042
Counsel for Petitioner
1900 S. Harbor City Blvd., Suite 124
Melbourne, FL 32901
Telephone: (321) 433-0737
E-mail: swagner@wagner-wagner.net

QUESTIONS PRESENTED
1.

Whether the separation of powers doctrine prohibits the legislative and
executive branches from forcing a district court judge to impose a
minimum mandatory prison sentence?

2.

Whether the Petitioner’s 40-year minimum mandatory sentence for
armed drug trafficking violates the Eighth Amendment’s prohibition on
cruel and unusual punishment?
LIST OF PARTIES

1.

Jimmy Fernetus (Petitioner).

2.

Edson Gelin (Co-Appellant below).

3.

Raymond Ayap (Co-Appellant below).

4.

Gerardson Norgaisse (Co-Appellant below).

5.

Kissenger St. Fleur (Co-Appellant below).
CORPORATE DISCLOSURE STATEMENT
No corporation has an interest in the outcome of the present matter.
LIST OF PROCEEDINGS

1.

Jimmy Fernetus v. United States, United States Supreme Court, Case No.

TBA.

i

2.

United States v. Edson Gelin et al., United States Circuit Court of Appeals

for the Eleventh Circuit, Case No. 18-12811. Final Judgment Entered April 15,
2020.
3.

United States v. Jimmy Fernetus et al., United States District Court for the

Middle District of Florida, Case No. 6:17-CR-131-ORL-41. Final Judgment
Entered June 29, 2018.

TABLE OF CONTENTS

TABLE OF AUTHORITIES CITED .................................................................. ii
OPINION BELOW ................................................................................................ iii
JURISDICTION..................................................................................................... iii
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ........ iii
STATEMENT OF THE CASE ............................................................................... 1
REASONS FOR GRANTING THE PETITION .................................................. 2
APPENDIX: Eleventh Circuit Opinion (April 15, 2020) ................................... A
TABLE OF AUTHORITIES CITED
U.S. Const. art. III ....................................................................................................iv,

ii

U.S. Const. amend. VIII...........................................................................................iv,
United States v. Gelin, No. 18-12811, 2020 WL 1873382 (11th Cir. Apr. 15, 2020)
.............................................................................................................................. iii, 2
Graham v. Fla., 560 U.S. 48, 130 S. Ct. 2011, 176 L. Ed. 2d 825 (2010) ................ 7
Harmelin v. Michigan, 501 U.S. 957, 111 S. Ct. 2680, 2683, 115 L. Ed. 2d 836
(1991) .....................................................................................................................6, 7
Mistretta v. United States, 488 U.S. 361, 109 S. Ct. 647, 102 L. Ed. 2d 714 (1989)
................................................................................................................................4, 5
28 U.S.C. § 1254 ...................................................................................................... iii
The Federalist (Jacob E. Cooke ed., 1961) ................................................................ 5
CITATION OF THE OPINION BELOW
United States v. Gelin, No. 18-12811, 2020 WL 1873382 (11th Cir. Apr. 15,
2020). This opinion is unpublished.
JURISDICTION
The Eleventh Circuit decided this case on April 15, 2020. The Petitioner
invokes this Court’s jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS

iii

Article III of the United States Constitution States in relevant part,
Section 1. The judicial Power of the United States, shall
be vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain and
establish. The Judges, both of the supreme and inferior
Courts, shall hold their Offices during good Behaviour,
and shall, at stated Times, receive for their Services, a
Compensation, which shall not be diminished during
their Continuance in Office.
Section 2. The judicial Power shall extend to all Cases,
in Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or which
shall be made, under their Authority . . . to Controversies
to which the United States shall be a Party. . . .
The Eighth Amendment to the United States Constitution States, “Excessive
bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.”

iv

STATEMENT OF THE CASE
The petitioner, Jimmy Fernetus was convicted of conspiracy and possession
with intent to traffic in cocaine, as well as two counts of possession of a firearm in
furtherance of the cocaine charges. The district court imposed the minimum
mandatory 40-year sentences required by statute (ten years, followed by five years,
followed by 25 years).
At sentencing, Mr. Ferentus argued that his mandatory minimum prison
sentences violate the separation of powers doctrine inasmuch as they force a
district court judge to impose a particular sentence, and thus prevent the trial
district court from considering whether a lesser sentence would meet the goals of
federal sentencing. Mr. Fernetus also argued that his 40-year mandatory sentences
violate the Eighth Amendment’s ban on cruel and unusual punishment.
Mr. Fernetus raised both issues in the Eleventh Circuit. On Appeal, Mr.
Fernetus conceded that prior panels of the Eleventh Circuit had rejected similar
separation of powers challenges, and that the Eleventh Circuit panel hearing his
case was bound to reject the claim under the “prior precedent” rule, which requires
a subsequent panel to adhere to previous panel opinions unless those opinions are
overturned by the Eleventh Circuit sitting en banc, or by this Court. (During the
litigation, Mr. Fernetus filed a petition for a hearing en banc, which was not

1

granted.) Thus, the Eleventh Circuit panel affirmed, noting, “We have rejected
similar separation-of-powers challenges to mandatory-minimum sentences in three
published opinions.” United States v. Gelin, No. 18-12811, 2020 WL 1873382, at
*8 (11th Cir. Apr. 15, 2020).
With respect to the Eighth Amendment claim, Mr. Fernetus argued that the
imposition of a 40-year mandatory prison sentence was grossly disproportionate to
the criminal conduct for which he was convicted. The Eleventh Circuit held,
In view of [Harmelin v. Michigan, 501 U.S. 957, 111 S.
Ct. 2680, 115 L. Ed. 2d 836 (1991)], Mr. Fernetus’ and
Mr. Gelin’s sentences are not cruel and unusual. Both
were found to be responsible for the distribution of five
kilograms or more of cocaine and 280 grams or more of
cocaine base, both were convicted of two counts of
possessing a firearm in furtherance of a drug trafficking
crime, and both have criminal histories. Their sentences,
therefore, do not violate the Eighth Amendment.
Id. at *9.
REASONS FOR GRANTING THE PETITION
It is axiomatic that the Legislature’s authority to enact criminal statutes, and
the Executive’s authority to enforce such statutes, emanate from the Constitution.
Without the Constitution, no act of Congress would be valid, and no executive
authority would exist whatsoever. And, while the Legislature and the Executive, by
right, may assert the respective powers found within the text of the Constitution, it

2

is also in the text of the Constitution that we may reasonably seek the limits of
legislative and executive authority. Those limits prevent Congress and the
Executive from forcing Article III judges to impose minimum mandatory
sentences.
Article III vests the judicial authority of the United States of America in this
Court, and in the inferior courts established by Congress. To ensure this co-equal
branch an appropriate measure of independence from the political branches, the
justices and judges who exercise federal judicial power under Article III serve
“during good Behaviour,” and are guaranteed that their pay “shall not be
diminished during their Continuance in Office.” U.S. Const. art. III, § 1.
Article III also defines the scope of this judicial authority as extending “to
all Cases, in Law and Equity, arising under this Constitution, the Laws of the
United States . . . [and] to Controversies to which the United States shall be a
Party. . . .” U.S. Const. art. III, § 2.
Thus the first two sections of Article III plainly vest the district courts with
the authority participate in federal sentencing, and plainly vest Article III judges
with a necessary measure of independence from the political branches during the
process of imposing a sentence. Minimum mandatory sentences categorically
eliminate this independent exercise of judicial authority, since only the Legislature

3

and the Executive have any say in the appropriateness of a minimum sentence.
This categorical exclusion of the judiciary from a process within its plain
constitutional authority completely vitiates judicial independence, and, as a result,
violates the separation of powers doctrine.
The last time this Court considered a separation of powers challenge to any
aspect of federal sentencing law was Mistretta v. United States, 488 U.S. 361, 109
S. Ct. 647, 102 L. Ed. 2d 714 (1989). In relevant part, the issue in Mistretta was
whether the provisions of the Sentencing Reform Act of 1984 creating the United
States Sentencing Guidelines and the United States Sentencing Commission violate
the separation of powers doctrine by eroding “the integrity and independence of
the Judiciary by requiring Article III judges to sit on the Commission, by requiring
that those judges share their rulemaking authority with nonjudges, and by
subjecting the Commission's members to appointment and removal by the
President.” 488 U.S. at 384. Mistretta disagreed that the unique circumstances
surrounding the creation of the Sentencing Guidelines and the Sentencing
Commission constituted an unconstitutional encroachment on the power of the
judiciary. Id. at 412. And, Mistretta also noted (in obiter dictum) that
“Congress, of course, has the power to fix the sentence for a federal crime . . . and
the scope of judicial discretion with respect to a sentence is subject to
congressional control.” 488 U.S. at 364.

4

Nonetheless, the notion that Congress has the authority to prescribe
minimum mandatory sentences runs contrary to the plain language of Article III, 1
and it does not stand up to the analytical approach employed in Mistretta. Drawing
heavily on Madison’s reasoning in The Federalist No. 51, Mistretta eschewed a
rigid, categorical division of power between the branches in favor of a “flexible
understanding of separation of powers,” one that recognizes “Madison's teaching
that the greatest security against tyranny-the accumulation of excessive authority in
a single Branch-lies not in a hermetic division among the Branches, but in a
carefully crafted system of checked and balanced power within each Branch.” Id.
at 381.
According to Madison, “[T]he great security against a gradual concentration
of the several powers in the same department, consists in giving to those who
administer each department, the necessary constitutional means, and personal
motives, to resist encroachments of the others. The provision for defense must in
this, as in all other cases, be made commensurate to the danger of the attack.” The
Federalist No. 51, p. 349 (Jacob E. Cooke ed., 1961).
1

It should be noted that Art. III, § 3 expressly grants Congress the authority to
“declare the Punishment of Treason.” While treason is not at issue in this case, a
plain reading of Article III could qualify this statement as “Congress has no
constitutional authority to prescribe a minimum punishment for any crime other
than treason.”

5

Federal minimum mandatory sentencing statutes completely divest the
judiciary of the constitutional means and personal motives to resist encroachment
by the political branches in the process of imposing federal sentences. So long as
Congress writes the statute, the President signs it into law (or fails to prevent a veto
override), the judiciary is categorically excluded from imposing a sentence below
the statutory minimum. In this sense, mandatory sentencing statutes reduce Article
III judges to the ministerial role of signing sentencing orders predetermined by
Congress. This encroachment into the organic power of the judiciary is not mere
nibbling around the edges of the judiciary’s constitutional prerogative—it is a
complete exclusion of the judiciary altogether from the uniquely judicial role of
determining the appropriate sentence for a particular criminal defendant.
If Madison’s words are taken seriously, then one must consider what
“provision for defense” must be afforded to the judiciary to resist this
encroachment into the sentencing process. The answer is quit simple. Article III
judges must have the constitutional authority to depart downward from statutory
minimum sentences.
Mr. Fernetus’ 40-year mandatory sentences are also grossly disproportionate
to the conduct for which he was convicted. In a plurality opinion, the United States
Supreme Court held that life imprisonment without the possibility of parole for
possession of 672 grams of cocaine does not violate the Eighth Amendment.
6

Harmelin v. Michigan, 501 U.S. 957, 111 S. Ct. 2680, 2683, 115 L. Ed. 2d 836
(1991). However, in determining whether a sentence is cruel and unusual,
courts must look beyond historical conceptions to “ ‘the
evolving standards of decency that mark the progress of a
maturing society.’ ” Estelle v. Gamble, 429 U.S. 97, 102,
97 S.Ct. 285, 50 L.Ed.2d 251 (1976) (quoting Trop v.
Dulles, 356 U.S. 86, 101, 78 S.Ct. 590, 2 L.Ed.2d 630
(1958) (plurality opinion)). “This is because ‘[t]he
standard of extreme cruelty is not merely descriptive, but
necessarily embodies a moral judgment. The standard
itself remains the same, but its applicability must change
as the basic mores of society change.’ ” Kennedy v.
Louisiana, 554 U.S. 407, 419, 128 S.Ct. 2641, 2649, 171
L.Ed.2d 525 (2008) (quoting Furman v. Georgia, 408
U.S. 238, 382, 92 S.Ct. 2726, 33 L.Ed.2d 346 (1972)
(Burger, C.J., dissenting)).
Graham v. Fla., 560 U.S. 48, 58, 130 S. Ct. 2011, 2021, 176 L. Ed. 2d 825
(2010), as modified (July 6, 2010). Harmelin is now 29-year-old. It would be
difficult to argue that the society’s views on the appropriate punishment for drug
crimes have not evolved to the point where it shocks the contemporary conscious
the imagine that Mr. Fernetus will spend 40 years in prison for the conduct at issue
in this case, and that he received his sentence without any meaningful participation
from the district judge who sentenced him. Twenty-nine years after Harmelin, the
question of whether harsh minimum mandatory sentences for narcotics offenses
constitute cruel and unusual punishment is due for this Court’s reevaluation.

7

Respectfully submitted this 14th Day of July 2020.

By: ___________________________
Sean M. Wagner,
Florida Bar No. 14042
Counsel for Petitioner
1900 S. Harbor City Blvd., Suite 124
Melbourne, FL 32901
Telephone: (321) 433-0737
E-mail: swagner@wagner-wagner.net

8

Appendix A

United States v. Gelin, --- Fed.Appx. ---- (2020)

KeyCite Blue Flag – Appeal Notification
Petition for Certiorari Docketed by EDSON GELIN v. UNITED STATES,
U.S., June 17, 2020

2020 WL 1873382
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Edson GELIN, Jimmy Fernetus, Raymond
Michael Ayap, Gerardson Norgaisse,
Kissinger St. Fleur, Defendants-Appellants.
No. 18-12811
|
(April 15, 2020)
Synopsis
Background: Five defendants were convicted in the United
States District Court for the Middle District of Florida,
No. 6:17-cr-00131-CEM-TBS-2, Carlos Mendoza, J., of
conspiracy to distribute five kilograms or more of cocaine
and 280 grams or more of cocaine base, and two of those
defendants were also convicted of possessing a firearm
in furtherance of a drug trafficking offense. Defendants
appealed.

[4] evidence was sufficient to support defendant's conviction
for possessing a firearm in furtherance of a drug-trafficking
crime;
[5] evidence was sufficient to identify defendant as the same
person who was shown to be a participant in the conspiracy,
and who aided and abetted in the distribution of cocaine;
[6] defendant's prior state-court conviction for possession of
cocaine was probative of intent, and thus, admissible; and
[7] District Court did not abuse its discretion in refusing to
give a buyer-seller jury instruction.
Affirmed.

West Headnotes (28)
[1]

[2]

Criminal Law

Review De Novo

Criminal Law
obtained

Evidence wrongfully

When reviewing the denial of a motion to
suppress, findings of fact are reviewed for clear
error and the application of law is reviewed de
novo.

[1] law enforcement had probable cause to stop defendant for
driving six miles over the speed limit;

[3] the government presented sufficient evidence to support
the conviction of defendant for aiding and abetting the
possession with intent to distribute cocaine;

Grounds

Law enforcement had probable cause to stop
defendant for driving six miles over the speed
limit because, under Florida law, driving any
speed on the Florida turnpike that exceeded
the posted limit was a moving violation. U.S.
Const. Amend. 4; Fla. Stat. Ann. §§ 316.187(3),
318.18(3)(B).

Holdings: The Court of Appeals held that:

[2] The government presented sufficient evidence to support
co-conspirators' convictions for conspiracy to possess with
intent to distribute five kilograms or more of cocaine and 280
grams or more of cocaine base;

Automobiles

[3]

Criminal Law

Review De Novo

Criminal Law
Construction in favor of
government, state, or prosecution
Criminal Law
from evidence

Inferences or deductions

The Court of Appeals reviews the sufficiency
of evidence de novo, viewing the evidence in
the light most favorable to the government and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Gelin, --- Fed.Appx. ---- (2020)

Conspiracy
proof

drawing all reasonable inferences and credibility
choices in favor of the jury’s verdict.

[4]

Conspiracy

[5]

Conspiracy

Conspiracy to distribute controlled substances
may be inferred when the evidence shows
a continuing relationship that results in the
repeated transfer of illegal drugs to the purchaser,
and from a drug transaction where the amount
of drugs allows an inference of a conspiracy
to distribute drugs. Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 406, 21
U.S.C.A. § 846.

Narcotics and dangerous drugs

The government presented sufficient evidence
to support co-conspirators' convictions for
conspiracy to possess with intent to distribute
five kilograms or more of cocaine and 280
grams or more of cocaine base; the government
presented evidence that one of the conspirators
sold cocaine out of two houses and took
care of customers while the leader of the
conspiracy was in Haiti, that another conspirator
regularly purchased distribution-sized quantities
of cocaine and would bring customers to the
houses to purchase cocaine, and that two of
the conspirators were found with 73 grams of
cocaine when stopped by police. Comprehensive
Drug Abuse Prevention and Control Act of 1970
§ 406, 21 U.S.C.A. § 846.

[8]

Conspiracy
proof

Particular crimes

Presumptions and burden of

Although a simple buyer-seller controlled
substance transaction does not, by itself, form
a conspiracy, a conspiracy can be found if the
evidence allows an inference that the buyer
and seller knew the drugs were for distribution.
Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 406, 21 U.S.C.A. § 846.

[7]

Conspiracy

Particular crimes

Controlled Substances
or distribution

Possession for sale

The government presented sufficient evidence
to support the conviction of defendant for
aiding and abetting the possession with intent
to distribute cocaine; the charge was based on
testimony by a government witness that he called
the defendant to set up a cocaine purchase,
that defendant told him where to go to pick
up the cocaine, and that when he went to the
house, he picked up an ounce of cocaine from
someone else, and even though defendant was
not present when the witness picked up the
cocaine, the jury could infer that the defendant
constructively possessed the cocaine sold as he
knew of its presence and exercised control over
it by directing his distributor to sell it to the
witness. 18 U.S.C.A. § 2; Comprehensive Drug
Abuse Prevention and Control Act of 1970 § 401,
21 U.S.C.A. §§ 841(a)(1), 841(b)(1)(C).

To sustain a conviction for conspiracy to
distribute narcotics the government must prove
that (1) an agreement existed between two
or more people to distribute the drugs; (2)
that the defendant at issue knew of the
conspiratorial goal; and (3) that he knowingly
joined or participated in the illegal venture.
Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 406, 21 U.S.C.A. § 846.

[6]

Presumptions and burden of

[9]

Controlled Substances
possession

Constructive

Possession of a controlled substance may be
actual or constructive.

[10]

Controlled Substances
possession

Constructive

A defendant’s constructive possession of a
controlled substance can be proven by a showing
of ownership or dominion and control over the
drugs or over the premises on which the drugs
are concealed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Gelin, --- Fed.Appx. ---- (2020)

[11]

Weapons
Use or Possession in
Commission of Crime
Evidence was sufficient to support defendant's
conviction for possessing a firearm in
furtherance of a drug-trafficking crime; an
undercover video of cocaine sale transaction
showed defendant was armed, and a
coconspirator testified that his organization kept
guns in the house to protect themselves and to
protect the drugs. 18 U.S.C.A. § 924(c).

[12]

Criminal Law
Identity and characteristics
of persons or things
Identification of a defendant can be established
by inference and circumstantial evidence.

[14]

[15]

Criminal Law
Intent

Other Misconduct Showing

Evidence of a defendant’s other crimes is
admissible when that evidence is used to prove,
inter alia, the defendant’s intent to commit the
crime at issue. Fed. R. Evid. 404(b).

Criminal Law
Identity and characteristics
of persons or things
In prosecution for conspiracy to possess with
intent to distribute five kilograms or more of
cocaine and 280 grams or more of cocaine base,
and for aiding and abetting others in distributing
or possessing with intent to distribute cocaine or
cocaine base, evidence was sufficient to identify
defendant as the same person who was shown
to be a participant in the conspiracy, and who
aided and abetted in the distribution of cocaine;
a coconspirator testified that he dealt drugs with
and spoke on intercepted phone conversations
with a person who used the alias “Phat Boi,” and
identified the defendant in court as “Phat Boi,” a
police officer testified that 73 grams of cocaine
was recovered from a passenger following a
traffic stop of defendant's car after it left a drug
house, and while officers did not make an incourt identification of defendant, a reasonable
jury could have inferred that defendant was
indeed “Phat Boi.” Comprehensive Drug Abuse
Prevention and Control Act of 1970 §§ 401, 406,
21 U.S.C.A. §§ 841, 846.

[13]

Defendant's prior state-court conviction for
possession of cocaine was probative of intent,
and thus, admissible in federal prosecution for
conspiracy to distribute cocaine, because the
prior conviction was for possession of the same
drug involved in the conspiracy. Comprehensive
Drug Abuse Prevention and Control Act of 1970
§ 406, 21 U.S.C.A. § 846; Fed. R. Evid. 404(b)
(2).

[16]

Criminal Law

Other offenses

A district court’s decision to admit evidence of a
defendant's other crimes is reviewed for abuse of
discretion. Fed. R. Evid. 404(b).

[17]

Criminal Law
Theory and Grounds of
Decision in Lower Court
A decision to admit evidence may be affirmed for
any reason supported by the record, even if not
relied upon by the district court.

[18]

Criminal Law
offense

Elements and incidents of

District court did not abuse its discretion in
refusing to give a buyer-seller jury instruction
in prosecution for conspiracy to distribute
cocaine; while the requested instruction was
legally correct and the evidence could have
been interpreted as showing only a buyer-seller
relationship, the conspiracy instruction that was
given was sufficient to address the substance of
the requested instruction. Comprehensive Drug
Abuse Prevention and Control Act of 1970 § 406,
21 U.S.C.A. § 846.

Criminal Law
Conspiracy, racketeering,
and money laundering

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Gelin, --- Fed.Appx. ---- (2020)

[19]

Criminal Law
Points

Co-conspirators' 40 and 50 year sentences
for conspiracy to distribute cocaine and
associated weapons charges were not grossly
disproportionate the gravity of the offenses,
and thus, did not constitute cruel and unusual
punishment under the Eighth Amendment; both
co-conspirators were found to be responsible
for the distribution of five kilograms or more
of cocaine and 280 grams or more of cocaine
base, both were convicted of two counts
of possessing a firearm in furtherance of a
drug trafficking crime, and both had criminal
histories. U.S. Const. Amend. 8; 18 U.S.C.A. §
924(c); Comprehensive Drug Abuse Prevention
and Control Act of 1970 § 406, 21 U.S.C.A. §
846.

Instructions on Particular

A district court’s refusal to give a requested
instruction warrants reversal only if the
requested instruction was correct, the charge
actually given did not substantially address it,
and the failure to give the instruction seriously
impaired the defendant’s ability to present an
effective defense.

[20]

Criminal Law

Review De Novo

A defendant's constitutional challenges to his
sentence are reviewed de novo.

[21]

Conspiracy

Sentence and Punishment

Constitutional Law
punishment

Sentencing and

Coconspirators' sentences for conspiracy to
distribute five kilograms or more of cocaine and
280 grams or more of cocaine base did not
violate the separation of powers by requiring the
sentencing judge to defer to the legislature in
imposing sentence. Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 406, 21
U.S.C.A. § 846.

[22]

Conspiracy

[24]

[25]

Sentencing and Punishment
sentence deemed not excessive

Total

Sentencing and Punishment
or consecutive sentences

Cumulative

Criminal Law

Sentencing

Criminal Law

Sentencing and Punishment

The Court of Appeals may set aside a sentence
only if it determines, after giving a full measure
of deference to the sentencing judge, that the
sentence imposed is truly unreasonable, and
as a result, may reverse only if left with the
definite and firm conviction that the district court
committed a clear error of judgment in weighing
the statutory sentencing factors by arriving at a
sentence that lies outside the range of reasonable
sentences dictated by the facts of the case. 18
U.S.C.A. § 3553(a).

Constitutional Law
Statutory minimum,
maximum, or mandatory sentences

[23]

Sentencing

Court of Appeals reviews the substantive
reasonableness of a sentence imposed by the
District Court for abuse of discretion.

Sentence and Punishment

The mandatory minimum sentencing scheme for
conspiracy to distribute cocaine conviction did
not violate due process on the basis it prevented
the district court from making individualized
sentencing determinations. U.S. Const. Amend.
14; Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 406, 21 U.S.C.A. § 846.

Criminal Law

[26]

Sentencing and Punishment
offender's participation

Extent of

Sentencing and Punishment
and carrying

Possession

Sentencing and Punishment
Offenses, Charges, Misconduct

Other

Sentencing and Punishment
sentence deemed not excessive

Total

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Gelin, --- Fed.Appx. ---- (2020)

Co-conspirator's 40 and 50 year sentences for
conspiracy to distribute cocaine and associated
weapons charges were substantively reasonable;
the district court sentenced each defendant to
the mandatory minimum term of imprisonment
required by statute, each of which fell below
the statutory maximum of life imprisonment on
the conspiracy count alone, and the sentences
were reasonable in light of defendants' extensive
involvement in the conspiracy, possession of
firearms, and criminal histories. 18 U.S.C.A. §
924(c); Comprehensive Drug Abuse Prevention
and Control Act of 1970 §§ 401, 406, 21
U.S.C.A. §§ 841(b)(1)(A), 846.

[27]

Criminal Law

Review De Novo

Questions of statutory
reviewed de novo.

interpretation

are

Ryan Thomas Truskoski, Ryan Thomas Truskoski, PA,
Orlando, FL, for Defendant-Appellant Edson Gelin
Cynthia Ann Hawkins, Law Office of Cynthia Hawkins,
Orlando, FL, for Defendant-Appellant Gerardson Norgaisse
Brett Meltzer, Law Office of Brett Meltzer, Windermere, FL,
for Defendant-Appellant Raymond Mike Ayap
Charles M. Greene, Charles M. Greene, PA, Orlando, FL, for
Defendant-Appellant Kissinger St. Fleur
Kissinger St. Fleur, Pro Se
Appeals from the United States District Court for the Middle
District of Florida, D.C. Docket No. 6:17-cr-00131-CEMTBS-2
Before JORDAN, TJOFLAT, and TRAXLER, * Circuit
Judges.
Opinion

[28]

Criminal Law
facts

Effect of change in law or

First Step Act, which was enacted while
defendants' cases were pending on appeal after
they were convicted of drug trafficking crimes,
did not apply to defendants, even though it
contained provision stating that amendments
made by Act applied to offenses committed
before its enactment if sentence had not been
imposed at time of enactment; while sentence
was not final since it was pending appeal,
sentence had been imposed by the district court.
18 U.S.C.A. § 924(c).

Attorneys and Law Firms
Holly Lynn Gershow, Linda Julin McNamara, Dawn A.
Tiffin, U.S. Attorney Service - Middle District of Florida,
U.S. Attorney's Office, Tampa, FL, for Plaintiff-Appellee
Sean Michael Wagner, The Law Offices of Sean M. Wagner,
PA, Melbourne, FL, for Defendant-Appellant Jimmy Remy
Fernetus

PER CURIAM:
*1 This appeal involves the convictions and sentences of
five defendants—Edson Gelin, Jimmy Fernetus, Raymond
Michael Ayap, Gerardson Norgaisse, and Kissinger St. Fleur
—who participated in a drug trafficking conspiracy in
Orlando, Florida. After a seven-day trial, a jury found them
guilty of conspiracy to distribute five kilograms or more of
cocaine and 280 grams or more of cocaine base, as well
as several other narcotics charges. The jury also found Mr.
Fernetus and Mr. Gelin guilty of possessing a firearm in
furtherance of a drug trafficking offense.
Four of the defendants—Mr. Gelin, Mr. Ayap, Mr. Norgaisse,
and Mr. St. Fleur—appeal their convictions, raising individual
challenges to the sufficiency of the evidence, challenging
certain evidentiary rulings, and contesting the district court’s
refusal to give a buyer-seller instruction. Three of the
defendants—Mr. Gelin, Mr. Fernetus, and Mr. St. Fleur—also
appeal their sentences, arguing that the mandatory minimum
sentencing structure is unconstitutional on various grounds,
that their sentences are substantively unreasonable, and that
the First Step Act should be retroactively applied to them.
After review of the record and the parties’ briefs, and with
the benefit of oral argument, we affirm the defendants’
convictions and sentences.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Gelin, --- Fed.Appx. ---- (2020)

I
Based on evidence the government presented at trial, the facts
are as follows.
Eric Jean Gilles, the leader of the conspiracy, operated
a cocaine-trafficking organization out of two houses in
Orlando: the 18 th Street house and the Grand Street house.
He used a house in Miami as a stash house, where his
suppliers dropped off the drugs for him to pick up. After
pleading guilty to the charges against him, Mr. Gilles became
a cooperating witness for the government and provided key
testimony against the other defendants at trial.

A
Mr. Gilles testified that Mr. Gelin worked for him from 2013
to 2016. In 2013, he hired Mr. Gelin to transport cocaine from
Miami to Orlando. Mr. Gelin traveled to Miami once or twice
a month, picking up one to four kilograms of cocaine on each
trip. He would then sell the cocaine out of the Orlando houses,
and he carried a gun while he worked.
According to Mr. Gilles, when he traveled to Haiti in 2014 he
put Mr. Gelin in charge of his houses and cellphone, telling
him to take care of his customers. When Mr. Gilles returned
from Haiti in 2016, Mr. Gelin told him that the cocaine supply
had slowed. Mr. Gilles asked his Miami supplier to “front” his
organization two kilograms of cocaine and directed Mr. Gelin
to pick up the drugs.
On June 7, 2016, Mr. Gelin traveled from Orlando to the
Miami stash house to pick up the two kilograms of cocaine.
The next day, as he was traveling north on the Florida
Turnpike, officers stopped him for speeding. He was traveling
76 miles-per-hour in a 70 miles-per-hour zone. When a K-9
handler walked her dog around the car, the dog indicated that
he smelled narcotics. Two deputies searched the car and found
the two kilograms of cocaine and numerous cell phones,
among other things.

B

*2 Mr. Gilles also testified that he brought Mr. Fernetus into
his drug organization in 2016. He testified that, like Mr. Gelin,
Mr. Fernetus carried a firearm while he worked.
Another cooperating witness, Rufus White, testified that he
made controlled purchases of cocaine from the two Orlando
houses. Each time, he would call Mr. Gelin in the presence
of law enforcement officers to arrange a cocaine purchase,
and then pick up the cocaine—sometimes from Mr. Gelin and
sometimes from Mr. Fernetus or someone else at one of the
houses.

C
William Arocho of the Orlando Police Department testified
that law enforcement officers obtained a wiretap on one of the
cellphones that Mr. Gilles’ organization used. Mr. Ayap was
a frequent caller overheard on the wiretap and was captured
discussing crack cocaine with Mr. Gilles.
Mr. Gilles testified that by 2015 or 2016, Mr. Ayap was
frequently purchasing 14 grams of crack cocaine from him
at a time, and occasionally would purchase as much as an
ounce at a time. Mr. Gilles testified that sometimes he “would
front him [crack cocaine] because he would come too often,
too fast.” D.E. 338 at 99. In addition, Mr. Gilles testified that
sometimes Mr. Ayap would bring customers to either the 18th
Street or Grand Street houses “to help” him, id. at 101, and
that Mr. Ayap told him that his customers liked the product
that he was obtaining from Mr. Gilles.
Officer Arocho also testified that law enforcement installed
pole cameras to record the vehicles and people visiting the
two Orlando houses. They saw Mr. Ayap’s gold Lexus visiting
both houses numerous times and connected intercepted phone
calls to times when his car went to the houses.
On March 3, 2017, after one of Mr. Ayap’s visits to the Grand
Street house, officers followed his car until they observed
a traffic infraction. They tried to stop him, but Mr. Ayap
refused to pull over. As the officers pursued Mr. Ayap, they
saw him throw something out of his car window, which they
later determined to be 8.4 grams of crack cocaine. Sergeant
Donald Kollar of the Orlando Police Department testified that
8.4 grams is a distribution amount.
When Mr. Ayap eventually stopped his car, the officers saw
that he had white powder on his shorts and shirt and that there

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Gelin, --- Fed.Appx. ---- (2020)

was a clear plastic baggie that had been ripped open on the
floorboard of the car. Mr. Ayap was arrested, and during the
search incident to arrest officers found $3,185 in cash on him.

D
Investigators also identified Mr. Norgaisse on the wiretap,
and they connected his calls with vehicles that he was using
to frequent the Orlando houses. His car was sometimes seen
making multiple short visits to the Orlando houses on the
same day.
Mr. Gilles testified that Mr. Norgaisse came to the 18 th Street
and Grand Street houses to deal drugs with him and Mr.
Fernetus in 2017. Mr. Norgaisse would purchase an ounce to
two-and-a-half ounces of cocaine at a time.
According to Mr. Gilles, Mr. Norgaisse was frequently with
Mr. St. Fleur. Officer Arocho testified that investigators
sometimes heard Mr. Norgaisse say on the wiretap that he was
going to send someone else to one of the houses, after which
Mr. St. Fleur would arrive. Mr. St. Fleur’s black Mustang
was seen at both houses at least a dozen times, and on one
occasion, Mr. St. Fleur was identified as the driver.
*3 On April 11, 2017, after Mr. Norgaisse’s car had been
seen at the 18 th Street house, investigators stopped him for
a traffic infraction. Mr. Norgaisse was driving, and Mr. St.
Fleur was in the passenger seat. Both consented to a search,
and investigators found 73 grams of cocaine hidden in Mr. St.
Fleur’s underwear.

II
A federal grand jury indicted Mr. Gelin, Mr. Fernetus,
Mr. Ayap, Mr. Norgaisse, Mr. St. Fleur, and several other
codefendants on one count of conspiracy to possess with
intent to distribute five kilograms or more of cocaine and 280
grams or more of cocaine base, see 21 U.S.C. § 846, between
2014 and 2017. The grand jury also indicted Mr. Gelin on four
counts of distributing and possessing with intent to distribute
various quantities of cocaine, see 21 U.S.C. § 841, one count
of aiding and abetting others in distributing or possessing with
intent to distribute cocaine or cocaine base, see 21 U.S.C.
§§ 841(a)(1), (b)(1)(C), and 18 U.S.C. § 2, and two counts
of possessing a firearm in furtherance of a drug trafficking

crime, see 18 U.S.C. § 924(c). The grand jury indicted Mr.
Fernetus on three counts of distributing and possessing with
intent to distribute various quantities of cocaine, see 21 U.S.C.
§ 841, four counts of aiding and abetting others in distributing
or possessing with intent to distribute cocaine or cocaine base,
see 21 U.S.C. §§ 841(a)(1), (b)(1)(C), and 18 U.S.C. § 2,
and two counts of possessing a firearm in furtherance of a
drug-trafficking crime, see 18 U.S.C. § 924(c). Mr. Ayap, Mr.
Norgaisse, and Mr. St. Fleur were each charged with one count
of aiding and abetting others in possessing cocaine or cocaine
base with intent to distribute it, see 21 U.S.C. §§ 841(a)(1),
(b)(1)(C), and 18 U.S.C. § (2).
Before trial, Mr. Gelin moved to suppress the evidence
obtained as a result of the June 2016 traffic stop on the Florida
Turnpike, arguing that the stop was a pretext for a drug search.
After an evidentiary hearing, the district court denied the
motion, finding that the traffic stop was reasonable under the
Fourth Amendment because Mr. Gelin was speeding.
Also before trial, the government filed an information and
notice of prior conviction, stating that Mr. St. Fleur was
convicted in Florida of possession of cocaine on March 16,
2015. During trial, Mr. St. Fleur objected to the admission of
this evidence, and the district court overruled the objection.
At the close of the government’s case, Mr. Gelin, Mr. Ayap,
Mr. Norgaisse and Mr. St. Fleur each moved for judgment of
acquittal as to the conspiracy count. Mr. Gelin also moved for
judgment of acquittal on the aiding and abetting and firearm
counts against him, and Mr. Norgaisse moved for judgment
of acquittal on the aiding and abetting count against him. The
district court denied the motions. In addition, Mr. St. Fleur
requested a buyer-seller jury instruction, and the district court
denied his request.
After a seven-day trial, the jury found the defendants guilty
as charged. The district court sentenced Mr. Gelin to 240
months of imprisonment on the drug counts, to be followed
by a consecutive term of 60 months’ imprisonment on the first
gun count, all to be followed by 300 months’ imprisonment
on the second gun count. It sentenced Mr. Fernetus to 120
months of imprisonment on the drug counts, to be followed
by a consecutive term of 60 months of imprisonment on the
first gun count, all to be followed by another consecutive
term of 300 months of imprisonment on the second gun
count. It sentenced Mr. Ayap to 120 months of imprisonment,
Mr. Norgaisse to 240 months of imprisonment, and Mr. St.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Gelin, --- Fed.Appx. ---- (2020)

Fleur to 240 months of imprisonment. All of their sentences
constituted the respective statutory minimum terms.
*4 This appeal followed.

III
We begin our discussion by addressing the defendants’
arguments challenging their convictions.
First, we evaluate Mr. Gelin’s challenge to the denial of his
motion to suppress. Second, we analyze Mr. Gelin’s, Mr.
Ayap’s, Mr. St Fleur’s, and Mr. Norgaisse’s sufficiency of the
evidence arguments. Third, we consider the district court’s
admission of Mr. St. Fleur’s prior conviction under Rule
404(b). Finally, we discuss the district court’s refusal to give
a buyer-seller instruction.

A
[1] Mr. Gelin argues that the district court erred in denying
his motion to suppress evidence obtained as a result of the
June 8, 2016 traffic stop. He asserts that law enforcement
“invent[ed] probable cause” to stop him as a pretext for
conducting a narcotics search, and that driving six miles per
hour over the speed limit is “too de minimus” to justify the
stop.
[2] When reviewing the denial of a motion to suppress, we
review findings of fact for clear error and the application of
law de novo. See United States v. Jordan, 635 F.3d 1181, 1185
(11th Cir. 2011). There is no error here. As the government
argues, law enforcement had probable cause to stop Mr. Gelin
for driving six miles per hour over the speed limit because,
under Florida law, driving any speed on the Florida Turnpike
that exceeds the posted limit is a moving violation. See Fla.
Stat. §§ 316.187(3), 318.18(3)(B). On this record, we reject
Mr. Gelin’s argument that the stop was pretextual based on
the Supreme Court’s opinion in Whren v. United States, 517
U.S. 806, 813, 116 S.Ct. 1769, 135 L.Ed.2d 89 (1996), which
held that “the constitutional reasonableness of traffic stops”
does not “depend[ ] on the actual motivations of the individual
officers involved.”

B

[3] Mr. Gelin, Mr. Ayap, Mr. Norgaisse, and Mr. St. Fleur
argue that the district court erred in denying their motions
for judgment of acquittal on the conspiracy charge. Mr.
Gelin also challenges the district court’s denial of his motion
for judgment of acquittal on the aiding and abetting and
firearm charges against him, and Mr. Norgaisse argues
that the government failed to present sufficient evidence
of his identity. We review the sufficiency of evidence de
novo, viewing the evidence in the light most favorable to
the government and drawing all reasonable inferences and
credibility choices in favor of the jury’s verdict. See United
States v. Duperval, 777 F.3d 1324, 1331 (11th Cir. 2015).

1
[4] Mr. Gelin, Mr. Ayap, Mr. Norgaisse and Mr. St. Fleur
each separately challenge the sufficiency of the evidence on
the conspiracy charge, arguing that the government failed
to prove that they entered an agreement to distribute drugs.
Instead, they assert, all the government established is that they
purchased drugs, and a buyer-seller relationship is insufficient
to prove the existence of a conspiracy.
[5]
[6]
[7] “To sustain a conviction for conspiracy to
distribute narcotics the government must prove that 1) an
agreement existed between two or more people to distribute
the drugs; 2) that the defendant at issue knew of the
conspiratorial goal; and 3) that he knowingly joined or
participated in the illegal venture.” United States v. Brown,
587 F.3d 1082, 1089 (11th Cir. 2009). Although “a simple
buyer-seller controlled substance transaction does not, by
itself, form a conspiracy ... a conspiracy can be found if the
evidence allows an inference that the buyer and seller knew
the drugs were for distribution[.]” United States v. Achey, 943
F.3d 909, 917 (11th Cir. 2019) (citation omitted). This may be
inferred “when the evidence shows a continuing relationship
that results in the repeated transfer of illegal drugs to the
purchaser,” and “from a drug transaction where the amount of
drugs allows an inference of a conspiracy to distribute drugs.”
Id. (citations and internal quotation marks omitted).
*5 As explained below, the government presented sufficient
evidence that each of these defendants was a member of the
charged conspiracy.
For instance, the government presented evidence that Mr.
Gelin sold cocaine out of the two Orlando houses, ran the
Orlando houses and took care of Mr. Gilles’ customers when

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Gelin, --- Fed.Appx. ---- (2020)

he was in Haiti, and transported cocaine from Miami to
Orlando to maintain the cocaine supply. It also presented
evidence that Mr. Ayap regularly purchased distribution-sized
quantities of cocaine from Mr. Gilles, that Mr. Gilles would
sometimes “front” Mr. Ayap crack cocaine, that Mr. Ayap
would bring customers to the Orlando houses “to help” Mr.
Gilles, and that Mr. Ayap told Mr. Gilles that his customers
liked the product that he was obtaining from Mr. Gilles. A
reasonable jury could find from this evidence that Mr. Gelin
and Mr. Ayap were members of the charged conspiracy. Cf.
Brown, 587 F.3d at 1090 (holding that the evidence was
sufficient to prove that the defendants were participants in a
conspiracy where the evidence showed that they helped each
other “maintain a steady source of illegal drugs[,] ... sold
drugs on credit, for resale, brokered deals for each other, and
shared customers and supplies”).
A reasonable jury could also conclude that Mr. Norgaisse
and Mr. St. Fleur knowingly joined the conspiracy from the
evidence that (1) in 2017, Mr. Norgaisse was purchasing an
ounce to two-and-a-half ounces of cocaine at a time from
the Orlando houses; (2) Mr. Norgaisse sometimes used Mr.
St. Fleur to pick up distribution-sized quantities of cocaine
from the houses; (3) Mr. Norgaisse’s car was sometimes seen
making multiple short visits to the Orlando houses on the
same day, and Mr. St. Fleur’s car was seen at both houses
at least a dozen times; and (4) on April 11, 2017, when Mr.
Norgaisse’s car was stopped after leaving the 18 th Street
house, officers found 73 grams of cocaine hidden on Mr. St.
Fleur, who was a passenger in the vehicle. See Achey, 943
F.3d at 917 (explaining that an agreement between a drug
supplier and purchaser to distribute a controlled substance can
be inferred from the fact that the amount of drugs purchased
was enough “to supply many others”); Brown, 587 F.3d at
1089 (“[A]s is well established in this Circuit, where there
are repeated transactions buying and selling large quantities
of illegal drugs, that is sufficient evidence that the participants
were involved in a conspiracy to distribute those drugs in
the market.”). Although Mr. Gilles testified that he did not
“really know” Mr. St. Fleur, “[i]t is irrelevant that particular
conspirators may not have known other conspirators or
participated in every stage of the conspiracy[.]” United States
v. Alred, 144 F.3d 1405, 1415 (11th Cir. 1998).

2
[8] Mr. Gelin also argues that the government presented
insufficient evidence of his aiding and abetting the possession

with intent to distribute cocaine. This charge was based on Mr.
White’s testimony that on March 8, 2016, he called Mr. Gelin
to set up a cocaine purchase, Mr. Gelin told him to go to the
18th Street house, and when Mr. White went to the house, he
picked up an ounce of cocaine from someone else. Mr. Gelin
argues that this was insufficient to prove possession because
he was not the one who showed up for the deal. We disagree.
*6 [9] [10] “Possession may be actual or constructive[.]”
United States v. Woodard, 531 F.3d 1352, 1360 (11th Cir.
2008) (citation and internal quotation marks omitted). “A
defendant’s constructive possession of a substance can be
proven by a showing of ‘ownership or dominion and control
over the drugs or over the premises on which the drugs
are concealed.” Id. (citation and internal quotation marks
omitted). The jury could infer from this testimony that Mr.
Gelin constructively possessed the cocaine sold as he knew
of its presence and exercised control over it by directing
his distributor to sell it to Mr. White. See United States v.
Benbow, 539 F.3d 1327, 1333 (11th Cir. 2008) (“Those who
have property, including illegal drugs, moved by others at
their direction and for their purposes constructively possess
that property while it is being moved.”).
[11] In addition, Mr. Gelin challenges the sufficiency of the
evidence for one of the § 924(c) charges against him, arguing
that although a firearm was found in a residence that he rented,
the government did not prove that it belonged to him. We are
persuaded that there is enough other evidence in the record to
support the jury’s verdict on this count, including undercover
video of an April 20, 2016, cocaine sale transaction with Mr.
White, which shows that Mr. Gelin was armed at the time,
and Mr. Gilles’ testimony that his organization members kept
guns in the house to protect themselves and to protect the
drugs.

3
[12] Finally, Mr. Norgaisse also raises a different sufficiency
of the evidence argument, asserting that he should have
been acquitted on both the conspiracy and aiding and
abetting charges against him because the government did not
sufficiently prove his identity. At trial, Mr. Gilles testified
that he dealt drugs with and spoke on the intercepted
telephone conversations with a person who used the alias
“Phat Boi,” and identified Mr. Norgaisse in court as Phat
Boi. Mr. Norgaisse claims that this is insufficient to establish
his identity because “no witness linked the individual

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Gelin, --- Fed.Appx. ---- (2020)

identified in the courtroom as ‘Phat Boi’ with the person
named Gerardson Norgaisse charged in the Superseding
Indictment[.]” See Mr. Norgaisse’s Initial Br. at 15.
[13] The government presented enough evidence for a
reasonable jury to conclude that Mr. Norgaisse is Phat Boi.
“Identification of a defendant can be established by inference
and circumstantial evidence.” United States v. Cooper, 733
F.2d 91, 92 (11th Cir. 1984). In addition to Mr. Gilles’ in-court
identification of Mr. Norgaisse, Officer Arocho testified that
investigators identified phone calls on the wiretap as coming
from a phone subscribed to Mr. Norgaisse. They connected
those phone calls to vehicles that would arrive at the houses,
which were under rental contracts with Mr. Norgaisse. The
rental contracts also listed the phone number from the wiretap
associated with Mr. Norgaisse as the contact number.
Another officer further testified that that on April 11, 2017,
he performed a traffic stop of Mr. Norgaisse’s vehicle and
identified Mr. Norgaisse as the driver and Mr. St. Fleur as
the passenger. The stop occurred after Mr. Norgaisse’s white
Jaguar left the 18 th Street house. The officer testified that
both consented to a search, and Mr. St. Fleur had 73 grams of
cocaine hidden in his underwear. Though the officers did not
make an in-court identification of Mr. Norgaisse, a reasonable
jury could infer from this evidence, coupled with Mr. Gilles’
in-court identification of Mr. Norgaisse as Phat Boi, that Phat
Boi was indeed Mr. Norgaisse.
Mr. Norgaisse also challenges the sufficiency of the evidence
to support his conviction for possessing cocaine with intent
to distribute it because, he submits, the government did not
prove that he knew Mr. St. Fleur had cocaine when the
April 11, 2017, traffic stop occurred. A reasonable jury could
conclude, however, that Mr. Norgaisse aided and abetted
Mr. St. Fleur’s possession of cocaine based on the evidence
that officers stopped Mr. Norgaisse’s car after it left the

that the district court did not identify a valid purpose for
admitting this conviction under Rule 404(b) and that his prior
conviction for cocaine possession is not probative of his intent
to distribute cocaine.
[15]
[16] “Federal Rule of Evidence 404(b) empowers
courts to admit evidence of a defendant’s other crimes when
that evidence is used to prove, inter alia, the defendant’s
intent to commit the crime at issue.” United States v. Smith,
741 F.3d 1211, 1225 (11th Cir. 2013). We review a district
court’s decision to admit evidence under Rule 404(b) for
abuse of discretion. See Brown, 587 F.3d at 1091.
[17] Although the district court did not state which Rule
404(b)(2) purpose it was admitting the prior conviction for,
we “may affirm ‘for any reason supported by the record, even
if not relied upon by the district court.’ ” United States v. AlArian, 514 F.3d 1184, 1189 (11th Cir. 2008) (citation omitted).
We have previously rejected Mr. St. Fleur’s argument that
a prior conviction for drug possession is not probative of
intent to distribute drugs. See United States v. Butler, 102
F.3d 1191, 1196 (11th Cir. 1997) (holding that “evidence of
prior personal drug use” is admissible “to prove intent in
a subsequent prosecution for distribution of narcotics”). We
have also found prior convictions to be “probative of intent
where, as here, the prior conviction was for possession of
the same drug involved in the instant conspiracy.” Smith, 741
F.3d at 1226 (holding that the district court did not abuse its
discretion in admitting the defendant’s prior convictions for
possession of cocaine in his trial for conspiracy to distribute
cocaine because they were probative of intent). Accordingly,
the district court did not abuse its discretion in admitting Mr.
St. Fleur’s prior conviction.

D

18 th Street house and from the testimony that Mr. Norgaisse
sometimes sent “his boy” Mr. St. Fleur to pick up cocaine
for him. See D.E. 336 at 17. The district court, therefore, did
not err in denying the defendants’ motions for judgment of
acquittal.

[18] At the close of the government’s case-in-chief, Mr.
St. Fleur requested that the district court give the following
buyer-seller jury instruction:

C

The fact that a defendant may have bought Cocaine from
another person is not sufficient without more to establish
that a defendant was a member of the charged conspiracy.

*7 [14] Mr. St. Fleur contends that the district court erred
by allowing the government to present evidence of his prior
state-court conviction for possession of cocaine. He argues

A buyer-seller relationship between a defendant and
another person, standing alone, cannot support a conviction
for conspiracy.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Gelin, --- Fed.Appx. ---- (2020)

Instead, a conviction for conspiracy requires proof of an
agreement to commit a crime beyond that of the mere sale.

instruction). Based on this precedent, we cannot hold that
the district court abused its discretion in refusing to give the
buyer-seller instruction.

D.E. 247; D.E. 340 at 216.
The district court refused to give this instruction without
explaining its reasoning. Mr. St. Fleur and Mr. Gelin now
challenge the district court’s refusal to give this instruction,
which we review for abuse of discretion. See Duperval, 777
F.3d at 1331. 1
[19] As discussed above, “a simple buyer-seller controlled
substance transaction does not, by itself, form a conspiracy.”
Achey, 943 F.3d at 917; United States v. Dekle, 165 F.3d
826, 830 (11th Cir. 1999) (explaining that “the existence of
a simple buyer-seller relationship alone does not furnish the
requisite evidence of a conspiratorial agreement”) (citation
and internal quotation marks omitted). We have said that “[a]s
long as there is some basis in the evidence and legal support,
the jury should be instructed on a theory of the defense.”
United States v. Farias, 836 F.3d 1315, 1328 (11th Cir. 2016)
(citation and internal quotation marks omitted). A district
court’s refusal to give a requested instruction, however,
“warrants reversal only if the requested instruction was
correct, the charge actually given did not substantially address
it, and the failure to give the instruction seriously impaired
the defendant’s ability to present an effective defense.” Id.
(citation and internal quotation marks omitted).
*8 We think the better course here would have been to
give the buyer-seller instruction, as the requested instruction
was legally correct and the evidence (viewed in the light
most favorable to Mr. St. Fleur and Mr. Gelin) could have
been interpreted as showing only a buyer-seller relationship.
Nevertheless, we do not reverse on this basis because of
binding precedent. We have held that a conspiracy instruction
—similar to the one given here—is sufficient to address the
substance of a requested buyer-seller instruction. See United
States v. Lively, 803 F.2d 1124, 1129 (11th Cir. 1986) (holding
that the trial court’s jury charge on conspiracy “adequately
and correctly covered the appellant’s requested instruction on
simple buyer/seller transactions”). See also Farias, 836 F.3d
at 1329 (holding that “[t]he general conspiracy instruction
given by the district court more than adequately met” the
defendant’s request for a buyer-seller instruction); United
States v. Brazel, 102 F.3d 1120, 1140 (11th Cir. 1997) (holding
that the district court’s failure to instruct on the buyerseller theory of defense was not error where the instruction
given addressed the substance of the requested buyer-seller

IV
We now turn to the challenges of Mr. Fernetus, Mr. Gelin,
and Mr. St. Fleur to their sentences. They argue that their
mandatory minimum sentences violate separation of powers,
due process, and the Eighth Amendment. They also argue
that their sentences are substantively unreasonable, and Mr.
Gelin and Mr. Fernetus assert that the First Step Act should
be applied to them.

A
[20] We review the defendants’ constitutional challenges to
their sentences de novo. See United States v. Brown, 364 F.3d
1266, 1268 (11th Cir. 2004). Each of those constitutional
arguments is foreclosed by our precedent or by Supreme
Court precedent.
[21] First, Mr. Fernetus, Mr. Gelin, and Mr. St. Fleur argue
that mandatory minimum sentences violate separation of
powers by requiring judges to defer to the legislature in
imposing sentences, despite their individualized assessment
of a case. We have rejected similar separation-of-powers
challenges to mandatory-minimum sentences in three
published opinions. See United States v. Holmes, 838 F.2d
1175, 1178 (11th Cir. 1988) (holding that the mandatory
minimum sentence requirements did not violate separation
of powers because “[i]t is for Congress to say what shall be
a crime and how that crime shall be punished ...”) (quoting
United States v. Smith, 686 F.2d 234, 239 (5th Cir. 1982));
United States v. Paige, 604 F.3d 1268, 1274 (11th Cir.
2010) (rejecting the defendant’s argument that his mandatory
minimum sentence violates separation of powers because it
was foreclosed by Holmes); United States v. Bowers, 811 F.3d
412, 431 (11th Cir. 2016) (explaining that the defendant’s
“separation of powers challenge must fail” under Holmes
and Paige). We are bound by these cases. See Smith v. GTE
Corp., 236 F.3d 1292, 1300 n.8 (11th Cir. 2001) (“Under the
well-established prior panel precedent rule of this Circuit, the
holding of the first panel to address an issue is the law of this
Circuit, thereby binding all subsequent panels unless and until
the first panel’s holding is overruled by the Court sitting en
banc or by the Supreme Court.”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Gelin, --- Fed.Appx. ---- (2020)

[22] Second, Mr. St. Fleur asserts that the mandatory
minimum sentencing scheme violates due process because
it prevents the district court from making individualized
sentencing determinations. We rejected a similar due process
argument in Holmes, and do so again here. See 838 F.2d at
1177 (rejecting the defendant’s argument that the mandatory
minimum sentencing provisions of § 841(b)(1) violate due
process because “it deprived him of an individualized
sentencing proceeding”).
[23] Third, Mr. Fernetus—who was sentenced to 40 years
of imprisonment—and Mr. Gelin—who was sentenced to 50
years of imprisonment—argue that their sentences constitute
cruel and unusual punishment under the Eighth Amendment
because they are grossly disproportionate to the gravity
of their offenses. Although we recognize the severity of
these sentences, “Supreme Court and Eleventh Circuit
precedent have set a high bar for a sentence to be ‘grossly
disproportionate.’ ” Bowers, 811 F.3d at 432. For instance, in
Harmelin v. Michigan, 501 U.S. 957, 995–96, 111 S.Ct. 2680,
115 L.Ed.2d 836 (1991), the Supreme Court held that it was
not “cruel and unusual” to impose a mandatory sentence of
life without parole for a first-time offender’s possession of
672 grams of cocaine. We have “never found a non-capital
sentence of an adult to violate the Eighth Amendment.”
Bowers, 811 F.3d at 432.
*9 In view of Harmelin, Mr. Fernetus’ and Mr. Gelin’s
sentences are not cruel and unusual. Both were found to
be responsible for the distribution of five kilograms or
more of cocaine and 280 grams or more of cocaine base,
both were convicted of two counts of possessing a firearm
in furtherance of a drug trafficking crime, and both have
criminal histories. Their sentences, therefore, do not violate
the Eighth Amendment.

B
[24] [25] Mr. Gelin, Mr. Fernetus, and Mr. St. Fleur also all
challenge the substantive reasonableness of their sentences,
which we review for abuse of discretion. See United States
v. Dixon, 901 F.3d 1322, 1348 (11th Cir. 2018). We may
“set aside a sentence only if we determine, after giving a
full measure of deference to the sentencing judge, that the
sentence imposed is truly unreasonable.” United States v.
Irey, 612 F.3d 1160, 1191 (11th Cir. 2010) (en banc). “As a
result, we may reverse only if left with the definite and firm

conviction that the district court committed a clear error of
judgment in weighing the § 3553(a) factors by arriving at a
sentence that lies outside the range of reasonable sentences
dictated by the facts of the case.” United States v. Stanley,
739 F.3d 633, 655 (11th Cir. 2014) (citations and internal
quotation marks omitted).
[26] The district court sentenced each of the defendants
to the mandatory minimum term of imprisonment required
by statute. Each of their sentences fell below the statutory
maximum of life imprisonment on the conspiracy count
alone, see 21 U.S.C. § 841(b)(1)(A), and within the advisory
guidelines range, which indicates that the sentences are
reasonable. See Stanley, 739 F.3d at 656 (“A sentence
imposed well below the statutory maximum penalty is an
indicator of a reasonable sentence.”); United States v. Hunt,
526 F.3d 739, 746 (11th Cir. 2008) (“Although we do not
automatically presume a sentence within the guidelines range
is reasonable, we ‘ordinarily ... expect a sentence within the
Guidelines range to be reasonable.’ ”) (quoting United States
v. Talley, 431 F.3d 784, 788 (11th Cir. 2005)).
In addition, Mr. Gelin’s and Mr. Fernetus’ sentences are
reasonable in light of their extensive involvement in the
conspiracy, possession of firearms, and criminal histories,
as discussed above. Mr. St. Fleur’s 20-year sentence is
also reasonable given that he was held accountable for the
distribution of five kilograms or more of cocaine and had a
lengthy criminal history. Thus, the defendants are not entitled
to relief from their sentences.

C
[27] Finally, Mr. Gelin and Mr. Fernetus argue that they are
entitled to be resentenced based on Section 403 of the First
Step Act. We review questions of statutory interpretation de
novo. See United States v. Maupin, 520 F.3d 1304, 1306 (11th
Cir. 2008). 2
[28] Prior to the enactment of the First Step Act, a
defendant convicted of more than one § 924(c) count faced
a substantially longer mandatory minimum sentence on each
count after the first. Specifically, § 924(c) required a sentence
of not less than five years for the first § 924(c) count and
not less than 25 years for each successive § 924(c) count,
even if those counts were charged in the same indictment. See
generally Deal v. United States, 508 U.S. 129, 134–37, 113
S.Ct. 1993, 124 L.Ed.2d 44 (1993). Section 403 of the First

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Gelin, --- Fed.Appx. ---- (2020)

Step Act amended § 924(c) to require a 25-year mandatory
minimum sentence only for a violation of § 924(c) “that
occurs after a prior conviction under [§ 924(c)] has become
final.” See First Step Act of 2018, Pub. L. No. 115-391, 132
Stat. 5194, 5221–22. Thus, if Section 403 of the Act applied
to Mr. Gelin and Mr. Fernetus, they would not be subject to a
25-year mandatory minimum sentence for the second § 924(c)
count charged against each of them in the indictment.
*10 Section 403(b) of the Act provides: “This section, and
the amendments made by this section, shall apply to any
offense that was committed before the date of enactment of
this Act, if a sentence for the offense has not been imposed as
of such date of enactment.” Id. at 5222 (emphasis added). Mr.
Gelin’s and Mr. Fernetus’ sentences were imposed on June 15,
2018, prior to the Act’s December 21, 2018 enactment. See
id. Although their cases were pending on appeal, the Act does
not apply to them because their sentences had already been
“imposed.” See, e.g., United States v. Aviles, 938 F.3d 503,

510 (3d Cir. 2019) (“ ‘Imposing’ sentences is the business
of the district courts, while courts of appeals are tasked
with reviewing them by either affirming or vacating them.”);
United States v. Pierson, 925 F.3d 913, 927 (7th Cir. 2019)
(“In common usage in federal sentencing law, a sentence is
‘imposed’ in the district court, regardless of later appeals.”). 3

V
For the foregoing reasons, we affirm the defendants’
convictions and sentences.
AFFIRMED.
All Citations
--- Fed.Appx. ----, 2020 WL 1873382

Footnotes

*
1
2
3

The Honorable William B. Traxler, Jr., Senior United States Circuit Judge for the Fourth Circuit, sitting by designation.
The district court had a standing ruling that an objection by one defendant stood as an objection for all defendants, so
this issue is properly preserved for both Mr. Gelin and Mr. St. Fleur.
Mr. Gelin concedes in his reply brief that the First Step Act does not apply to him, but Mr. Fernetus does not make the
same concession, so we address this argument on the merits.
We have reached the same result in unpublished cases. See, e.g., United States v. Ruff, 795 F. App'x 796, 797 (11th
Cir. 2020); United States v. Garcia, 2019 WL 7503482, at *1 (11th Cir. 2019).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

